 DOE/IG-0553




                              ALTERNATIVE FUELS USE
                                     AT THE
          AUDIT               DEPARTMENT OF ENERGY
         REPORT




                                        MAY 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                           U. S. DEPARTMENT OF ENERGY
                                 Washington, DC 20585

                                        May 2, 2002


MEMORANDUM FOR THE SECRETARY


FROM:                      Gregory H. Friedman (Signed)
                           Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Alternative Fuels Use at the
                           Department of Energy"

BACKGROUND

Since the 1970s, various strategies have been pursued to address concerns relating to U.S.
dependence on foreign petroleum. The Department of Energy, by virtue of its mission, has been
designated as a leader in this endeavor. As one element of its effort, the Department has set goals,
based on statutory requirements, for replacing its own use of petroleum-based motor fuels with
alternative fuels, such as compressed natural gas, propane, ethanol, bio-diesel, and electricity.
These goals include:

       •   Reducing its petroleum consumption by 20 percent by the year 2005; and,
       •   Acquiring and using light-duty vehicles that operate on alternative fuels.

Clearly, the success of the Department's internal effort has significant implications for the national
strategy in this arena. The objective of our audit was to determine whether actions taken by the
Department will contribute to reaching its own alternative fuels goals.

RESULTS OF AUDIT

We found that the Department had essentially satisfied its objective of acquiring vehicles capable
of operating on alternative fuels. The audit disclosed, however, that many of these vehicles were,
in fact, still being operated using petroleum-based motor fuels. Thus, the Department had not
made satisfactory progress in reaching its goals for alternatives fuels use. Driver resistance and
market conditions contributed to these results. The current lack of alternative fuels infrastructure,
such as readily available filling stations, contributed to the problem. Under the circumstances,
program success in the near term is highly questionable.

We recommended that the Department adopt a series of specific actions to increase the use of
alternative fuels in Department vehicles. To the extent that current goals are unrealistic,
impractical, or economically inefficient, we recommended that the Department develop new
strategies for achieving program success. In our view, this might require certain legislative
initiatives.
                                                -2-


In making these recommendations, we were mindful of the analysis which led to your January
2002 announcement regarding a new partnership between the Department and auto manufacturers
to promote the development of hydrogen fuel cell technology through the Freedom CAR program,
and the corresponding announcement that the Department was ending its participation in the
Partnership for a New Generation of Vehicles (PNGV). The Office of Inspector General and
others had previously concluded that the PNGV program was not making sufficient progress
toward producing an economically competitive automobile. In our view, a similar critical
evaluation should be made of the Department's alternative fuels program.

MANAGEMENT REACTION

Management stated that it had already taken actions to meet petroleum replacement goals, but
recognized that there was room for improvement. To that end, management concurred with our
recommendations and proposed corrective actions to implement them. While we consider the
actions taken to date and planned corrective actions to be positive steps, the Department must
closely monitor implementation activities if it is to meet the Presidential and Congressional goals
for reducing petroleum dependence. Detailed management and auditor comments are discussed in
the body of the report.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Assistant Secretary, Energy Efficiency and Renewable Energy
ALTERNATIVE FUELS USE AT THE DEPARTMENT OF ENERGY

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations.................................................. 1


               The Department's Alternative Fuels Program

               Details of Finding ........................................................................ 3

               Recommendations and Comments ........................................... 9


               Appendices

               1. Scope and Methodology ..................................................... 11

               2. Selected Prior Audit Reports ............................................... 13

               3. Management's Comments .................................................. 15
OVERVIEW

INTRODUCTION AND   The United States (U.S.) transportation industry is almost completely
OBJECTIVE          dependent on petroleum for its energy supply. Today, about 95 percent
                   of our nation's transportation energy needs are met by petroleum
                   products – primarily gasoline and diesel fuel – and the transportation
                   sector accounts for two-thirds of all the petroleum used in the U.S. One
                   significant strategy aimed at reducing petroleum use in the
                   transportation industry is to increase the use of alternative fuels, defined
                   as fuels that are substantially non-petroleum and yield energy security
                   and environmental benefits. Such products include compressed natural
                   gas, propane, ethanol, bio-diesel, and electricity, all of which are
                   available from domestic suppliers.

                   Over the past several years, statutes, Executive Orders, and Department
                   guidance documents have provided specific goals for displacing a
                   portion of petroleum based motor fuels with alternative fuels. These
                   goals include (1) reducing the Department's petroleum consumption by
                   20 percent by the year 2005; (2) assuring that 75 percent of new light-
                   duty vehicles the Department acquires in major metropolitan areas
                   operate on alternative fuels and that such fuels are used in those
                   vehicles at least 75 percent of the time by 2005 and 90 percent of the
                   time by 2010; and, (3) replacing, for the nation as a whole, 10 percent
                   of petroleum motor fuels with alternate fuels by 2000 and 30 percent by
                   2010.

                   The Office of Energy Efficiency and Renewable Energy has overall
                   responsibility for establishing programs and guidelines that will
                   encourage and enable the use of alternative fuels. The objective of our
                   audit was to determine whether actions taken by the Department, a
                   designated leader in promoting the use of alternative fuels, will
                   contribute to reaching its own mandated alternative fuels goals.


CONCLUSIONS AND    Despite some successes, the Department is not making significant
OBSERVATIONS       progress in its efforts to increase the use of alternative fuels. Current
                   usage rates do not approach intended displacement goals and significant
                   infrastructure and economic impediments make the achievement of
                   these goals in the foreseeable future doubtful. We found that the
                   Department had not established a comprehensive plan to address and
                   overcome obstacles to more widespread use of alternative fuels.
                   Without such a plan, the Department's ongoing investments in
                   alternative fuels may not create sufficient momentum to achieve
                   significant petroleum displacement in the nation as a whole.
                   We recommended that the Assistant Secretary for Energy Efficiency


Page 1                                                        Introduction and Objective/
                                                           Conclusions and Observations
         and Renewable Energy, working with the Department's other program
         offices, adopt a series of specific actions aimed at enhancing its strategy
         for petroleum reduction at Department sites. We also recommended
         that the Department work with the legislative branch and other
         interested parties to formulate more realistic and achievable
         programmatic outcomes.

         During the audit, we noted a number of positive initial steps toward
         greater use of alternative fuels. For instance, Lawrence Berkeley
         National Laboratory was regularly using 22 electric vehicles, and the
         National Energy Technology Laboratory (NETL) in Pittsburgh, PA, had
         an aggressive program to ensure that its compressed natural gas cars
         were frequently filled with that fuel. Additionally, the Department
         projected that the "Clean Cities" program, where the Department
         partners with cities to develop local alternative fuel markets, would lead
         to the purchase of 186,000 alternative fuel vehicles and the
         displacement of 18 million barrels of petroleum over an 8-year period.
         Finally, the Department reported that nationally, the number of
         alternative fuel vehicles has increased from 250,000 to 450,000 since
         1992.

         As we noted in our report on Management Challenges at the
         Department of Energy (DOE/IG-0538, December 2001), maintaining an
         adequate energy supply for economic and national security is of
         paramount importance. In that report, we designated energy supply
         issues as among the most important challenges the Department faces.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.



                                        ______(Signed)_________
                                        Office of Inspector General




Page 2                                          Conclusions and Observations
THE DEPARTMENT'S ALTERNATIVE FUELS PROGRAM
Petroleum      Since 1992, the Department has undertaken a number of initiatives aimed at
Displacement   increasing the use of alternative fuels within its own vehicle fleets. As of
               September 30, 2000, for example, the Department had acquired 1,777
               alternative fuel vehicles at 37 different locations, representing 11 percent of
               its fleet. Furthermore, the Department's current vehicle acquisition strategy
               was consistent with the requirement that at least 75 percent of new vehicles
               have the capability to use alternative fuels. At the time of our audit,
               however, alternative fuels displaced only a small fraction of the petroleum
               used Department-wide. In Fiscal Year (FY) 2000, the Department used
               about 77,000 gasoline gallon equivalents (GGE) of alternative fuels,
               representing just 1.4 percent of its total fuel usage of over 5.7 million
               gallons.

               In order to meet its goal of displacing 20 percent of petroleum needs, the
               Department plans to increase alternative fuel use from 77,000 GGE to over
               1.2 million GGE by 2005. To foster the accomplishment of this goal, the
               Department adopted a strategy focusing on 16 locations with large vehicle
               fleets. We visited six of those locations, and found that five faced significant
               impediments to greater alternative fuels usage. Collectively, the six sites
               used only about 9,000 GGE in 2000 but must increase their usage to over
               740,000 GGE over the next few years, as shown on the table below.

                                         Actual and Planned Alternative Fuels Use
                                               at Selected Department Sites
                                                         (in GGE)

                                                             2000           2005        Significant
                    Facility                                Actual       Planned        Impediments

               Nevada Test Site                                313        385,875       No CNG
                                                                                        infrastructure

               Lawrence Livermore National Laboratory          761        165,585       Outdated CNG
               (Livermore)                                                              infrastructure

               Los Alamos National                           4,893         72,075       Insufficient ethanol
               Laboratory (Los Alamos)                                                  infrastructure for
                                                                                        expected demand

               Sandia National Laboratory                       0*         71,160       Inadequate/
                                                                                        inaccessible CNG
                                                                                        infrastructure

               Lawrence Berkeley National Laboratory           476         43,783       No CNG
               (Berkeley)                                                               infrastructure

               National Energy Technology                    2,846          4,635       None
               Laboratory (Pittsburgh)

                               TOTAL                         9,289        743,113

                  *Although Sandia had some CNG usage in FY 2000, it could not adequately track that
                   usage and did not enter an amount in the Department's fuel consumption database.



Page 3                                                                              Details of Finding
         Specific examples of problems we found included the following:

              •   The Nevada Test Site has over 300 compressed natural gas
                  and ethanol vehicles. While a few of these vehicles are
                  operated in Las Vegas where there is access to the alternative
                  fuel required, most are at least 65 miles away at the Test Site
                  where there are no alternative fuel pumps. In addition,
                  responsible fleet managers at Nevada told us they have no
                  plans to build the required refueling infrastructure because to
                  do so in the Test Site's remote location would be too costly.
                  While Nevada plans greater use of bio-diesel, which is more
                  readily available, site officials told us it is unrealistic to
                  assume that the site will displace 385,000 GGE of petroleum
                  with other alternative fuels, as called for in the Department's
                  strategy.

              •   At Sandia National Laboratories (Sandia), users were
                  instructed to use on-site compressed natural gas pumps only in
                  an emergency. For normal refueling they were advised to use
                  pumps on the co-located U.S. Air Force site, which according
                  to site officials were frequently out-of-service. Additionally,
                  the Department is not planning any additional refueling
                  infrastructure at Sandia.

              •   The Los Alamos National Laboratory's (Los Alamos) use of
                  alternative fuels is supposed to increase from 4,893 GGE to
                  over 72,000 GGE through the use of ethanol-fueled vehicles.
                  However, Los Alamos officials told us that such an increase
                  was unlikely because there was only one available ethanol
                  pump, at a commercial gas station near the site. Los Alamos
                  had no plans for additional ethanol fueling facilities, and
                  officials were concerned that the ethanol pump would not be
                  sufficient to fuel its planned fleet of 310 vehicles.

         At five of the sites, we also interviewed users of a statistically selected
         sample of alternative fuel vehicles. Based on these interviews, we
         concluded that driver acceptance is an additional impediment to
         increased alternative fuel use at most sites. A significant number of
         users told us, for example, that they preferred not to use the alternatives
         because refueling was inconvenient or because vehicle range was
         limited. Several users also expressed uncertainty about how to refuel.
         We concluded that, given a choice, users would continue to use
         petroleum in their vehicles and not the alternative fuel.



Page 4                                                          Details of Finding
                         In some cases, the Department's strategy recognized that infrastructure
                         impediments, as well as driver acceptance issues, existed and must be
                         overcome. For the sites we visited, however, the strategy did not
                         sufficiently detail how impediments and conflicts such as those noted
                         above would be resolved.

                         The Office of Inspector General recognizes that the Department has
                         additional options for decreasing its use of petroleum fuels, including
                         the acquisition of higher fuel economy vehicles, and fleet efficiency
                         improvements. However, as currently configured, the Department's
                         fuel displacement strategy relies heavily on projected increases in the
                         use of alternative fuels. At best, the attainment of these increases will
                         be problematic given the unresolved infrastructure impediments and
                         user resistance.


Petroleum Displacement   Displacement criteria were established in legislation, by Executive
Requirements and Goals   Order and by Department policy. The Energy Policy Act (EPAct) of
                         1992 set goals for displacing 10 percent of the nation's petroleum fuels
                         by 2000 and 30 percent by 2010. To help meet these goals, the EPAct
                         required that certain percentages of new light-duty vehicle acquisitions
                         by Federal agencies (75 percent), State governments (75 percent), and
                         fuel providers (90 percent) be alternative fueled vehicles. Executive
                         Order 13149, established in April 2000, set a goal for reducing the
                         Federal government's petroleum use by 20 percent, as compared to
                         1999 levels, by 2005 and required each Federal agency to develop a
                         strategy to achieve this reduction goal. Additionally, agencies were
                         required to operate alternative fuel vehicles on alternative fuels a
                         majority of the time. In November 1999, the Secretary required that
                         within the Department, alternative fuels should account for at least 75
                         percent of total fuel usage in alternative fuel vehicles by 2005 and 90
                         percent by 2010.

                         The EPAct also assigned leadership responsibilities to the Department.
                         For example, under certain circumstances indicating that the EPAct is
                         not achieving intended objectives, the Department is to make
                         recommendations to Congress for new requirements or incentives better
                         suited to increasing the nation's use of alternative fuels.

                         The Government Performance and Results Act of 1993 required
                         agencies to focus their programs on results. As such, agencies were to




Page 5                                                                          Details of Finding
                         prepare annual performance plans that included, for each program
                         activity, performance measures and comparisons to previous program
                         outcomes. This approach was re-emphasized in the President's
                         FY 2002 Management Agenda, which stressed that Federal programs
                         should have well-defined, measurable performance indicators and
                         should, above all, deliver results.


Petroleum Displacement   The Office of Energy Efficiency and Renewable Energy prepared the
Approach                 Department's compliance strategy for Executive Order 13149 in
                         June 2001. While the strategy generally outlines a multi-faceted
                         approach to displacing petroleum within the Department's vehicle
                         fleets, it is not sufficiently specific or complete to ensure programmatic
                         success. Problems included the following:

                              •    Lack of specificity. The strategy includes a "basic
                                   assumption" that activities will be undertaken to ensure
                                   alternative fuel vehicles use alternative fuels 75 percent of the
                                   time on average. Such activities, however, are not defined,
                                   described, or specifically required. As we noted, most sites do
                                   not use significant quantities of alternative fuels even though
                                   large numbers of vehicles have been acquired.

                               •   Lack of accountability. Department fleet managers,
                                   according to the strategy, "will be held responsible for
                                   meeting and maintaining the 75 percent alternative fuel use
                                   requirement." No indication is given, however, as to how the
                                   Department will measure fleet managers' success or hold
                                   them accountable for not meeting goals.

                               •   Reliance on unrealistic assumptions. A key success factor
                                   noted is "commitment by vehicle operators to using
                                   alternative fuels a substantial part of the time." We agree that
                                   such commitment is necessary. Our interviews with vehicle
                                   operators at five sites led us to conclude, however, that even
                                   well-intended Department employees will not generally use
                                   alternative fuels unless they receive, at a minimum, better
                                   information and training about vehicle operation and
                                   refueling. Even with such additional information, it is not
                                   clear that operators will use alternative fuels unless required
                                   to do so.




Page 6                                                                          Details of Finding
                            •   Incomplete resolution of infrastructure impediments. The
                                strategy assumes that total costs for additional refueling
                                infrastructure will be about $2.7 million, covering 11 sites
                                that need such improvements. Of that amount, $500,000 is
                                designated for a compressed natural gas station at the
                                Nevada Test Site. Nevada officials told us, however, that
                                because of additional equipment and logistical concerns
                                required by their site's remoteness, costs would be at least
                                $1 million for 1 CNG station. Further, Nevada has no plans
                                to proceed with the refueling infrastructure and indicated
                                that they may need two rather than the one proposed
                                refueling station to attain 50 percent CNG usage, which is
                                still below the strategy's anticipated 75 percent usage.
                                Without the Test Site's full participation, the Department's
                                replacement strategy is unlikely to succeed.

                     The May 2001 Report of the National Energy Policy Development
                     Group echoes some of the conclusions we reached based on our audit.
                     The Policy Development Group stated that:

                            The [alternative fuels program] focused on mandating that
                            certain fleet operators purchase alternative fueled vehicles. The
                            hope was that this vehicle purchase mandate would lead to
                            expanded use of alternative fuels. That expectation has not been
                            realized, since most fleet operators purchase dual-fueled
                            vehicles that operate on petroleum motor fuels.

                     Given the continuing need for the Department and the nation to
                     implement a comprehensive energy strategy, now is an opportune time,
                     in our judgment, for the Department to re-evaluate its strategies for
                     achieving success in the alternative fuels program. Such an effort
                     should include opportunities to overcome long-standing impediments
                     and, if necessary, to work with the legislative branch and other
                     interested parties to promulgate more realistic and achievable outcomes.


Benefits of a More   Resolving impediments to the Department's in-house strategy is
Effective Program    important for a number of reasons. Ensuring that alternative fuel
                     vehicles are filled with alternative fuels a majority of the time, for
                     example, maximizes the Department's investment in those vehicles. A
                     Chevrolet Cavalier compressed natural gas sedan, commonly acquired




Page 7                                                                   Details of Finding
         by the Department, costs $5,400 more than the same model that uses
         only gasoline. The extra cost obviously provides no benefit if the
         alternative fuel is not used.

         More importantly, by overcoming barriers to its own use of alternative
         fuels, the Department can exercise a more credible leadership role in
         creating momentum for significant petroleum displacement in the
         nation as a whole. Nationally, the use of alternative fuels has lagged far
         behind congressionally established goals. The EPAct assigned the
         Department a leadership role in attaining 10 percent petroleum
         displacement by 2000 and 30 percent by 2010. Actual usage, however,
         has consistently been just under 3 percent since 1995 and has been
         primarily attributed to additives blended with petroleum products,
         rather than alternative fuels. Even relatively successful Department
         initiatives, such as the Clean Cities program, have done little to change
         alternative fuel usage as a percentage of total energy consumption.

         It is not our intent that the Department force compliance with program
         goals if market conditions and other institutional impediments made the
         achievement of those goals unrealistic or inefficient. Rather, the
         Department should identify and promote certain best practices for
         achieving current goals, but at the same time not hesitate to identify
         instances where program implementation will not achieve the desired
         outcomes.

         For example, both the Department and the Energy Policy Development
         Group concluded that other approaches to alternative fuels, including
         expanded incentives for purchasing alternative fuels or vehicles, and for
         building infrastructure, might increase program effectiveness. During
         our review officials from the Department, other government agencies,
         and the private sector opined that the EPAct needed to be reviewed and
         modified to reflect current technology advancements. As an example,
         hybrid vehicles, which operate part of the time on petroleum and part of
         the time on electricity and which have enjoyed some acceptance in the
         market place, are not recognized under the Act even though they reduce
         petroleum use. The EPAct allows the Department to submit
         recommendations to Congress for new requirements or incentives to
         better achieve petroleum displacement goals.




Page 8                                                         Details of Finding
RECOMMENDATIONS   We recommend that the Assistant Secretary for Energy Efficiency and
                  Renewable Energy:

                         1. Develop and implement enhancements to the Department's
                            approach to the use of alternative fuels within its own light
                            vehicle fleets. Such enhancements should include:

                             a. Specific actions that will be undertaken to ensure that
                                operators use alternative fuels in alternative fuel vehicles
                                75 percent of the time on average;

                             b. Specific measures that will be used to hold fleet
                                managers accountable for alternative fuel use;

                             c. Educational and informational programs for alternative
                                fuel vehicle operators;

                             d. Complete discussion, and action plans for resolution, of
                                infrastructure impediments to alternative fuel usage goals;
                                and,

                             e. Performance measures that will allow the Department to
                                accurately gauge its progress toward achieving
                                displacement goals.

                         2. Explore, in cooperation with the Congress and other
                            stakeholders, an enhanced approach to a national alternative
                            fuels program that includes greater focus on incentives for
                            purchases and investments in alternative fuels, vehicles,
                            infrastructure, and emerging technologies. Such a program
                            should also include more realistic goals and measures of
                            success.


MANAGEMENT        In written comments to a draft of this report, the Assistant Secretary for
REACTION          Energy Efficiency and Renewable Energy stated that he believed the
                  Department had taken sufficient actions to meet petroleum replacement
                  goals but recognized that there was room for improvement.
                  Specifically, management believed that its strategy accounted for
                  impediments and conflicts related to meeting the petroleum
                  replacement goals. Management stated that the strategy was concurred
                  on by Headquarters organizations and field elements and that all
                  comments were resolved to the satisfaction of the commenting
                  organizations.

Page 9                                              Recommendations and Comments
                   In relation to the recommendation on the national alternative fuels
                   program, management cited many activities taken in relation to EPAct
                   and stated that the recommendation was consistent with actions already
                   taken by the Secretary. However, they concurred that the EPAct needs
                   to be reviewed and modified.

                   Management's comments on the report and the specific actions taken
                   and planned, including funding shifts, proposals for fleet manager
                   accountability and recognition, a modest driver education program, and
                   EPAct review, are detailed in their entirety in Appendix 3.


AUDITOR COMMENTS   While we consider the actions taken and planned to be positive steps,
                   we do not believe that the Department's strategy has adequately
                   accounted for impediments to meeting petroleum replacement goals.
                   Specifically, the strategy has not fully identified infrastructure
                   requirements for or other impediments to achieving fuel use goals. As
                   stated in our report, sites were either not planning to build the
                   infrastructure or the proposed facilities were insufficient to meet the
                   fuel use goals. While each site we visited was taking some actions to
                   reduce petroleum consumption, only one site was planning to
                   implement the entire plan for its location.

                   Despite the concurrence process on the strategy, the disconnect between
                   the Departmentwide strategy and the field sites' implementation has not
                   been adequately resolved. Without substantial participation by all
                   identified field sites, the Department cannot meet the petroleum
                   reduction goals. Management's proposed actions will not alleviate
                   these impediments because they involve more than funding issues. We
                   believe impediments must be examined from a site-level perspective
                   and that complete discussion and detailed action plans are necessary to
                   successfully resolve those impediments. In addition, the Department
                   needs to develop specific annual performance measures to evaluate
                   program performance in replacing petroleum.

                   For the nation as a whole, we agree that the Department has laid the
                   groundwork for assisting in the replacement of petroleum consumption
                   with the use of alternative fuels. However, further actions are necessary
                   to realize the EPAct objectives. In particular, the Department needs to
                   fully analyze incentives and alternatives and provide specific
                   recommendations to Congress that will help implement a
                   comprehensive national petroleum replacement strategy.




Page 10                                                                        Comments
APPENDIX 1

SCOPE         We conducted the audit from June 2001, to January 2002, at
              Department of Energy Headquarters in Washington, DC; the National
              Energy Technology Laboratory in Pittsburgh, PA; Nevada Test Site,
              Las Vegas, NV; Sandia National Laboratory, Albuquerque, NM; Los
              Alamos National Laboratory, Los Alamos, NM; Lawrence Berkeley
              National Laboratory, Berkeley, CA; and Lawrence Livermore National
              Laboratory, Livermore, CA. We also interviewed officials from the
              following organizations:

              Federal Government

                 General Services Administration
                 National Aeronautics and Space Administration
                 Environmental Protection Agency
                 Department of Transportation
                 Department of Agriculture
                 Department of Health and Human Services
                 U.S. Postal Service

              Alternative Fuel Vehicle Organizations and Coalitions

                 Natural Gas Vehicle Coalition
                 Electric Vehicle Association of the Americas
                 Propane Vehicle Council
                 U.S. Fuel Cell Council
                 American Public Transportation Association


METHODOLOGY   To accomplish the audit objective, we:

                   • Reviewed regulations and Department policies and guidance
                     related to petroleum replacement and reduction;

                   • Interviewed Department of Energy, other Federal government,
                     and alternative fuel organizations and coalitions to determine
                     successes and impediments these organizations have
                     encountered in implementing an effective alternative fuel
                     vehicle program;




Page 11                                                  Scope and Methodology
             •   Interviewed end-users of alternative fuel vehicles in the
                 Department to determine what their experiences and attitudes
                 toward using alternative fuel vehicles have been;

             •   Analyzed the Department's Executive Order 13149 Compliance
                 Strategy, as well as annual petroleum consumption reporting;

             •   Analyzed methodologies for obtaining and summarizing data in
                 the Department's Federal Automotive Statistical Tool, as well as
                 output from that system;

             •   Analyzed data to determine the Department's and nation's
                 success in reducing and replacing petroleum consumption, as
                 well as the attributes of alternative fuel vehicles;

             •   Reviewed Department budgets and performance measures; and,

             •   Reviewed prior Office of Inspector General and U.S. General
                 Accounting Office Reports (see Appendix 2).

          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits, and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Because our review
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit. We placed
          limited reliance on computer-processed data and performed tests of that
          data to the extent necessary to satisfy the audit objective.

          An exit conference was held with cognizant DOE Headquarters
          officials on April 12, 2002.




Page 12                                                 Scope and Methodology
APPENDIX 2

                                           PRIOR REPORTS

    Office of Inspector General Reports

    •     The U.S. Department of Energy's Participation in the Partnership for a New Generation of
          Vehicles Program (DOE/IG-0422, July 1998). Although research projects being pursued
          by the Department contributed to the goals of the Partnership for a New Generation of
          Vehicles (PNGV) Program, it was unlikely that some technologies such as fuel cells and
          compression-ignition direct ignition engine research would be developed in time to meet
          the PNGV 2004 timeframe.

    General Accounting Office Reports

    •     Energy Policy Act of 1992: Limited Progress in Acquiring Alternative Fuel Vehicles and
          Reaching Fuel Goals (GAO/RCED-00-59, February 2000). The Energy Policy Act's goals
          to replace at least 10 percent of petroleum fuel with alternative fuels in 2000 and 30 percent
          in 2010 will not be achieved under current economic conditions. Widespread acceptance
          of alternative fuels will be primarily determined by economics, not by provisions in the
          Act. The general public would shift significantly towards alternative fuels only if there are
          (1) dramatic and sustained increases in the price of gasoline and/or (2) very large incentives
          to reduce the cost of alternative fuel vehicles and encourage their use. Both of these
          measures would involve high costs, making them unlikely to be acceptable.

    •     Energy Policy Act: Including Propane as an Alternative Motor Fuel Will Have Little
          Impact on Propane Market (GAO/RCED-98-260, September 1998). It is unlikely that the
          goals of the Energy Policy Act (Act) of 1992 will be achieved. Based on Energy
          Information Administration (EIA) modeling, alternative fuels will account for less than 1
          percent in 2000 and about 3.4 percent in 2010 of the total motor fuel projected to be
          consumed by light-duty vehicles. The Act's focus on acquisition of alternative fueled
          vehicles rather than use of alternative fuels, high alternative fuel vehicle costs, low gasoline
          prices, and an inadequate refueling infrastructure are factors hindering the increased use of
          alternative fuels for transportation. Further, the effects of the Act on the supply and price
          of propane will be minimal and the increase in the overall price of propane will be
          negligible.

    •     Energy Security: Evaluating U.S. Vulnerability to Oil Supply Disruptions and Options for
          Mitigating Their Effects (GAO/RCED-97-6, December 1996). GAO estimated that the
          U.S. economy realizes hundreds of billions of dollars in benefits annually by using
          relatively low cost imported oil rather than relying on more expensive domestic sources of
          energy. By comparison, oil shocks impose large but infrequent economic costs that, when
          annualized, are estimated to cost the U.S. economy tens of billions of dollars per year.
          More importantly, substituting more costly domestic production for oil imports without
          lowering overall oil consumption would be unlikely to substantially lower the costs of oil


Page 13                                                                              Selected Prior Reports
          supply disruptions. In essence, the economic costs of oil price shocks depend largely upon
          the rise in the price of oil coupled with the nation's level of oil consumption, rather than the
          level of imports. While adopting the National Energy Policy Plan's initiatives may keep
          the economy's vulnerability to oil supply disruptions below what it otherwise would be, the
          EIA's forecasts indicate that by most measures the economy will not likely be significantly
          less vulnerable through 2015, primarily because the demand for oil is projected to increase.
          Only over a longer period do energy analysts anticipate significant improvement—and that
          depends on technological advances in such areas as energy efficiency and alternative fuels.

    •     Alternative-Fueled Vehicles: Progress Made in Accelerating Federal Purchases, but
          Benefits and Costs Remain Uncertain (GAO/RCED-94-161, July 1994). Many believe that
          alternative fuels have the potential to improve energy security and air quality, while
          providing economic benefits. However, because of uncertainties, further evaluation is
          needed to determine the extent to which such benefits can be realized and at what cost.
          Because alternative-fueled vehicles are often dispersed rather than concentrated, Federal
          efforts to encourage the development of refueling facilities have met with limited success.
          Also, the shortage of convenient refueling facilities has contributed to the low use of
          alternative fuels—operators of Federal dual-fueled vehicles often choose to use gasoline
          because of its ready availability. Nevertheless, the ultimate success of alternative fuels
          programs depends on including non-Federal vehicles. GAO made several
          recommendations including one that the Department implement legislation requiring
          Federal agencies to use alternative fuels unless the Secretary of Energy determines that
          operating vehicles on such fuels is not feasible.




Page 14                                                                              Selected Prior Reports
APPENDIX 3




Page 15      Management Comments
Page 16   Management Comments
Page 17   Management Comments
Page 18   Management Comments
                                                                              IG Report No.: DOE/IG-0553

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
